■H

No.

IN THE
SUPREME COURT OF THE UNITED STATES

MARC ANTHONY LOWELL ENDSLEY - PETITIONER
(Your name)
VS.
CINDY BLACK, etal. - RESPONDENT(S)

PROOF OF SERVICE
I, Marc Anthony Lowell Endsley, by my signature do swear and declare that I am the
petitioner in this matter and I am over 18 years of age. My address is:
ID Number: NA-212360-2
Marc Endsley
Napa State Hospital, 2100 Napa-Vallejo Hwy., Napa, CA 94558-6293
On

, as required by Supreme Court Rule 29,1 served the enclosed:

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AFFIDAVIT OR DECLARATION IN SUPPORT OF MOTION FOR LEAVE TO PROCEED
IN FORMA PA UPERIS
PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party's counsel, and on every other person required
to be served, by depositing an envelope(s) containing the above documents and all attachments
in the custody of hospital employees at Napa State Hospital at the address listed above, with first
class postage attached, and addressed as follows:
Clerk, Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

California Office of the Attorney General
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102-7004

Pursuant to 28 U.S.C. §1746,1 declare under penalty of perjury that the foregoing is true
and correct and this declaration was executed at Napa, California.
Dated:

'&c> -~2-02-0

Marc Endsley (Signature)

